               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Revenue Sharing Agreements

                        Audit Report




                                         September 14, 2012

Report Number FI-AR-12-004
                                                                    September 14, 2012

                                                        Revenue Sharing Agreements

                                                           Report Number FI-AR-12-004




BACKGROUND:
The U.S Postal Service enters into            Postal Service’s website. In addition, the
revenue sharing agreements with               Postal Service’s relationship with
various partners who are more efficient       Click2Mail needs improvement.
at providing certain services and             Specifically, the Postal Service did not
products. Revenue sharing is a process        address Click2Mail’s concerns in a
where the Postal Service and its alliance     timely manner, which caused a revenue
partner share the generated revenue.          loss of about $447,000 within the past
                                              year. Finally, management did not
Our objective was to determine the            maintain a central repository for revenue
efficiency and effectiveness of select        sharing agreements to ensure timely,
revenue sharing agreements.                   efficient, and accurate retrieval of
Specifically, we reviewed Imagitas, Inc.,     information; and policies and
Dinero Seguro®, Click2Mail, and Endicia       procedures on establishing and
agreements to determine whether               monitoring revenue sharing agreements
Postal Service management and                 were not clear.
alliance partners are complying with
agreement controls, revenue share             WHAT THE OIG RECOMMENDED:
amounts are valid and accurate, and the       We recommended developing a process
relationship between the Postal Service       to verify Click2Mail sales transaction
and alliance partners is functioning          data for completeness and accuracy;
effectively.                                  obtaining web traffic data to verify
                                              Click2Mail revenue sharing; developing
WHAT THE OIG FOUND:                           a process to address alliance partner
For three of four agreements reviewed,        concerns within mutually agreed
management and alliance partners              timeframes; and communicating goals
complied with agreement requirements,         and developing a process to measure
revenue sharing amounts were valid            agreement performance. We also
and accurate, and the relationship was        recommended establishing a central
efficient and effective. For the Click2Mail   repository for all revenue share
agreement, management did not                 documentation; and developing and
implement a process to validate postage       disseminating detailed procedures for
and the revenue from the production of        creating, designing, and monitoring
mailpieces or require the alliance            agreements.
partner to provide detailed data on the
number of visitors and total visits the       Link to review the entire report
Click2Mail website receives from the
September 14, 2012

MEMORANDUM FOR:            NAGISA MANABE
                           EXECUTIVE VICE PRESIDENT AND
                            CHIEF MARKETING/SALES OFFICER

                           STEPHEN J. MASSE
                           ACTING CHIEF FINANCIAL OFFICER

                           MARY ANNE GIBBONS
                           EXECUTIVE VICE PRESIDENT AND GENERAL COUNSEL




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Revenue Sharing Agreements
                           (Report Number FI-AR-12-004)

This report presents the results of our audit of Revenue Sharing Agreements (Project
Number 12BG009FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Policy Formulation & Financial Controls, or me at 703-248-2100.

Attachments

cc: Gary C. Reblin
    Kelly M. Sigmon
    Giselle E. Valera
    Cynthia Sanchez-Hernandez
    Corporate Audit and Response Management
Revenue Sharing Agreements                                                                                          FI-AR-12-004




                                               TABLE OF CONTENTS




Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Postage and Production Revenue Validation .................................................................. 2

Web Activity Verification .................................................................................................. 3

Click2Mail Relationship ................................................................................................... 3

   Timeliness ................................................................................................................... 4

   Communicating Goals ................................................................................................. 6

Central Repository for Documentation ............................................................................ 6

Revenue Sharing Process ............................................................................................... 7

Recommendations .......................................................................................................... 9

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objective, Scope, and Methodology .......................................................................... 13

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Monetary Impacts ..................................................................................... 16

Appendix C: Management’s Comments ........................................................................ 17
Revenue Sharing Agreements                                                                            FI-AR-12-004




Introduction

This report presents the results of our audit of Revenue Sharing Agreements (Project
Number 12BG009FI000). Our overall objective was to determine the efficiency and
effectiveness of select revenue sharing agreements. Specifically, we reviewed
Imagitas, Inc., Dinero Seguro®, Click2Mail, and Endicia agreements to determine
whether:

   U.S. Postal Service management and alliance partners were complying with revenue
    sharing agreement reporting controls.

   Revenue share amounts were valid and accurate.

   The relationship between Postal Service and alliance partners was functioning
    effectively.

This self-initiated audit addresses financial risk. See Appendix A for additional
information about this audit.

The Postal Service enters into agreements with various partners who are more efficient
at providing certain services and products. These agreements can contain benefits for
both parties, such as revenue sharing. Revenue sharing is when the Postal Service and
the partner share the revenue generated from developing and marketing joint products.
Examples include the Postal Service receiving a commission when a visitor to the
Postal Service’s website registers and purchases mail products from Click2Mail and
Imagitas sharing advertising revenue from joint efforts associated with the change of
address program. Other benefits, though less tangible, are goodwill and visibility.

Postal Service management identified 14 total revenue sharing agreements. These
agreements generated about $42.2 million in shared revenue1 and $2 billion in postage2
revenue in fiscal year (FY) 2011.3 Of the 14 agreements, we reviewed four that
generated about $36.8 million in shared revenue and about $1.3 billion in postage
revenue during FY 2011.

Conclusion

For three of four revenue sharing agreements reviewed, Postal Service management
and alliance partners complied with agreement reporting requirements, revenue sharing
amounts were valid and accurate, and the relationship between the Postal Service and

1
  The Postal Service’s share of revenue generated from developing and marketing joint products with an alliance
partner.
2
  Postage on products such as First-Class Mail®, Standard Mail®, Express Mail®, Priority Mail®, and International
Express and International Priority Mail.
3
  Examples of the services or products provided by the 14 revenue sharing agreements include labels, postcards,
and computer-based postage.
                                                          1
Revenue Sharing Agreements                                                                             FI-AR-12-004



alliance partners was efficient and effective. For Click2Mail, the fourth agreement,
management did not implement a process to validate postage and production revenue4
data or require the alliance partner to provide monthly data on web traffic. In addition,
the relationship between the Postal Service and Click2Mail needs improvement.
Specifically, the Postal Service did not address Click2Mail concerns in a timely manner,
which caused a revenue loss of about $447,000 for the Postal Service in FYs 2011 and
2012. Finally, management did not maintain a central repository for revenue sharing
agreement documentation to ensure timely, efficient, and accurate retrieval of
information; and policies and procedures on establishing and monitoring agreements
were not clear. Without clear guidelines and sufficient oversight of the revenue sharing
process, the Postal Service could lose revenue and have difficulty making informed
decisions.

Postage and Production Revenue Validation

Management did not develop a method to obtain independent revenue sharing data to
validate the completeness and accuracy of data provided by Click2Mail. Instead,
management relied on Click2Mail’s monthly sales transaction spreadsheet and only
recalculated the production revenue portion to confirm the mathematical calculations. In
addition, they did not verify that the spreadsheet identified all customers originating from
USPS.com5 or that corresponding purchase transactions were complete and accurate.
As a result, the Postal Service was unaware that Click2Mail owed $150,540 in revenue
sharing due to a system registration failure that occurred from July 2008 through
November 2009, until informed by Click2Mail.6 We also identified a similar issue in our
report on the standard mail volume incentive program7 for business mailers where the
Postal Service relied on mailers’ customer data to calculate net revenue contributions
and increased mail volume.

The Postal Service is responsible for ensuring the accuracy and reliability of its data.
According to the program manager, they did not independently verify data because they
had limited resources in areas such as personnel and funds. In addition, the program
manager stated that conducting an audit of Click2Mail would cost the Postal Service
more than the production revenue received from the agreement. However, we found
that, in the past, they verified the data by periodically creating accounts with Click2Mail
and mailing items to determine whether the alliance partner was properly recording
transactions and sharing revenue. We also noted in the other three agreements
reviewed (which have higher revenue) that management had methods in place to
validate the data. For example, Postal Service management validates Imagitas data
using an external certified public accounting firm. By not having a standardized process

4
  Revenue generated by Click2Mail for producing mailpieces for customers. The Postal Service receives a
percentage of the production revenue for the duration of the customer’s account.
5
  Click2Mail pays the Postal Service a commission if a visitor to the Postal Service’s website purchases hybrid mail
products from Click2Mail.
6
  In March 8, 2011, Click2Mail entered into a repayment plan to pay the Postal Service $149,535 of production
revenue and $1,005 of interest revenue, for a total of $150,540 for the underpayment of revenue and interest by
September 1, 2011.
7
  Fiscal Year 2009 Standard Mail Volume Incentive Program (Report Number FF-AR-10-196, dated July 16, 2010).



                                                          2
Revenue Sharing Agreements                                                                               FI-AR-12-004



in place to verify data, management may not discover errors, omissions, and
inconsistencies that negatively affect revenue.

Web Activity Verification

Management did not receive the necessary data from one of the four alliance partners
to effectively monitor its agreement. Specifically, management did not require Click2Mail
to provide the monthly web traffic data reports8 needed to show website activity.
Management planned to use the report to:

   Identify the number of times the Click2Mail hyperlink was accessed on the
    USPS.com website.

   Determine the number of customers who registered from the website.

   Establish how many of the registered customers made purchases of Postal Service
    products from Click2Mail.

This process would allow management to verify shared revenue by determining which
customers made purchases. For the other three agreements reviewed, Postal Service
management received the necessary reports to validate the data. For example, Endica
management provides daily log files and detailed monthly invoices.

According to the agreement, Click2Mail must provide the web traffic data report to the
Postal Service within 10 calendar days after the end of each month. The Postal Service
contractor who oversees the agreement stated that, due to an oversight, he did not
require Click2Mail to provide the report. After we inquired about the report, the
Postal Service contractor requested and received a web traffic data report;9 however,
the report did not provide the necessary data to determine the number of customer
registrations and purchases. Without the additional data included in the report, the
Postal Service could not verify the shared revenue, which could lead to a potential loss
of revenue.

Click2Mail Relationship

The Postal Service’s relationship with Click2Mail needs improvement. Specifically, the
Postal Service was not effective in addressing Click2Mail’s concerns in a timely manner
and communicating goals.




8
  The web traffic report represents detailed information about the visits a website receives. The Postal Service
incorporated the monthly report requirement into the revenue sharing agreement, dated August 2011.
9
  The contractor received one web traffic report that included data from October 2011 through April 2012.


                                                           3
Revenue Sharing Agreements                                                                           FI-AR-12-004




Timeliness

The Postal Service redesigned its USPS.com website in July 2011 to improve the
customer experience.10 However, Click2Mail believed this redesign resulted in a
negative impact on its ability to obtain new users from USPS.com. Click2Mail’s
management immediately notified Postal Service management of the negative impact.
The Postal Service did not address Click2Mail’s concerns until about 8 months later. As
a result, the Postal Service lost about $447,00011 in revenue sharing and postage
revenue, and Click2Mail lost about $280,000 in production revenue.

On the redesigned website, when customers selected the ‘Design Mail & Postage’ web
page, the ‘Postage’ tab would open first, and it did not include the Click2Mail website
hyperlink.12 Therefore, potential users had to search USPS.com to locate the Click2Mail
hyperlink. In addition, Click2Mail management mentioned that their hyperlink is no
longer in multiple locations on USPS.com, and they believe this also caused them to
lose new users and business.

After the redesign, new Click2Mail users acquired from USPS.com decreased from
about 400 per week to less than 100 per week between January 2011 and April 2012.
Figure 1 illustrates the decrease in the number of new Click2Mail users.




10
   Improving the customer experience involves making the website convenient, simple, and consistent for households
and small businesses.
11
   Production revenue loss of $31,000 and postage revenue loss of $416,000 for the 40 weeks since the new website
launched.
12
   According to the agreement, the Postal Service is required to provide Click2Mail hyperlinks on USPS.com through
which visitors may obtain information about Click2Mail products and services. The Click2Mail website hyperlink is
located in the ‘Mail’ tab.


                                                        4
Revenue Sharing Agreements                                                    FI-AR-12-004




                     Figure 1. Click2Mail USPS.com Weekly New Users




Source: Click2Mail; Manager, Customer Operations.

In March 2012, the Postal Service updated its ‘Design Mail & Postage’ web page to
allow the ‘Mail’ tab, which includes the hyperlinks to Click2Mail and other revenue
sharing partners, to open first. This modification has helped increase the number of new
users, but not to the previous level experienced. Management stated that everyone
would like to have a greater presence on USPS.com; however, that is not possible. In
addition, management stated they needed to address concerns related to the website’s
functionality prior to making additional modifications.

The Postal Service receives a percentage of the production revenue and all of the
postage revenue generated from customers who register with Click2Mail using the
hyperlink on the USPS.com website. We determined that, on average, the redesigned
website reduced the number of new USPS.com Click2Mail users by 371 per week and
reduced new production and postage revenue payable to the Postal Service by about
$11,167 per week.

We reviewed the relationships with the other alliance partners and found that timeliness
of issue resolution has not been a concern. For example, neither Imagitas nor Endicia



                                                    5
Revenue Sharing Agreements                                                                         FI-AR-12-004



expressed problems or issues that were not addressed in a timely manner. If the
Postal Service does not make additional modifications to its website to direct new users
to Click2Mail’s hyperlink, they could lose about $581,000 annually.13 See Appendix B
for monetary impact.

Communicating Goals

Management did not clearly communicate its expectations or goals to Click2Mail to help
both organizations better support one another. Specifically, management did not
implement an appropriate performance measurement process relevant to its revenue
sharing agreement to determine how well Click2Mail is meeting expectations or goals.
Our research indicated that organizations should communicate business objectives
clearly, so both can realize when goals have been met. For example, the Postal Service
and Endicia agree to provide and review progress reports on business performance
twice per year; the Imagitas agreement calls for review and discussion of the business
plan and annual budget; and the Dinero Seguro agreement requires a business plan
which addresses the objectives and goals.

When asked whether the Postal Service established specific goals for the Click2Mail
revenue sharing agreement, the program manager stated that at the start of the
program there may have been specific goals; however, since personnel have changed
several times over the life of this program, management no longer has historical
documents and specific goals are unknown. By communicating the goals and
monitoring progress, the Postal Service and Click2Mail would be in a better position to
evaluate whether or not the partner relationship is working and where the organizations
can increase revenue.

We believe the Postal Service has established a good working relationship with higher
revenue generating partners, such as Imagitas and Endicia; however, considering the
current financial situation of the Postal Service, it is important to develop strong
relationships with all partners.

Central Repository for Documentation

Management did not have a central repository for all revenue sharing agreement
documentation. For example, the current program manager for the Click2Mail
agreement could not locate the initial documentation, including the business plan or
solicitation documentation. This information could have assisted in determining and
evaluating revenue projection and the costs associated with the agreement. In addition,
in an effort to locate documentation for the Imagitas agreement, management directed
us to three different managers before we eventually obtained the documentation from
the legal department. According to our research, successful organizations have the
ability to identify, locate, and retrieve documentation to support ongoing business


13
  The revenue loss of about $581,000 represents production revenue loss of $40,513, and postage revenue loss of
$540,176 going forward for a 52-week period.


                                                       6
Revenue Sharing Agreements                                                                              FI-AR-12-004



activities. Additionally, it is good business practice to use an electronic or hard copy
central repository to ensure timely, efficient, and accurate retrieval of information.14

Although the chief marketing/sales officer oversees all the functional groups that
oversee the agreements, management stated that a central repository does not exist
because each program manager is responsible for maintaining his or her own
documentation. The Click2Mail program manager stated that the original business plan
and solicitation information is dated and no longer applicable since the agreement has
changed dramatically over the years. While the information may be dated, the
Postal Service has had many changes in personnel over the years and a central
repository of documentation could help management minimize the loss of knowledge
and historical data and assist with future decision making.

Revenue Sharing Process

Management does not have clear policies and procedures in place to assist personnel
with establishing new or modifying existing revenue sharing agreements. One policy15
provides management with detailed instructions on how to define the project, determine
the potential benefits, and draft and negotiate the agreement. However, on January 14,
2011, the postmaster general issued a delegation of authority letter with limited
guidelines related to all promotional and revenue-generating activities. The delegation is
an effort to streamline the revenue sharing agreement process by requiring personnel
to:

    Incorporate all applicable laws, regulations, and treaties into the agreement.

    Obtain a legal department review.

    Certify cost coverage16 in accordance with Board of Governors and Postal
     Regulatory Commission guidelines.

For the four agreements reviewed, we could not determine whether the Postal Service
adhered to the delegation of authority letter requirements because some of the
processes and procedures overlap or conflict with the coexisting policy. In addition, two
of the agreements were signed prior to the delegation of authority letter.

Fourteen months17 after issuance of the delegation of authority letter, management
released a basic delegation process flowchart to select individuals that provided
general information on revenue sharing agreement procedures. The flowchart shows

14
   Association of Records Managers and Administrators Generally Accepted Recordkeeping Principles, approved
February 20, 2009.
15
   Handbook F-66D, Investment Policies and Procedures — Business Initiatives, Alliances, Real Estate Development,
and Major Operating Expense Investments, Chapter 4, February 2006.
16
   In accordance with Title 39 of the United States Code, Section 3633, the Postal Regulatory Commission must
ensure that each competitive product covers its attributable costs.
17
   The postmaster general issued the delegation of authority letter in January 2011 and in late March 2012 (during our
audit), management distributed the Chief Marketing Sales Officer Delegation Process – Business Alliances flowchart.


                                                          7
Revenue Sharing Agreements                                                                                                                            FI-AR-12-004



the responsibilities of each department and the processes they are required to follow,
such as the law department’s review of all contracts and the finance department’s
certification of cost coverage. See Figure 2 for delegation process.

               Figure 2. Chief Marketing Sales Officer Delegation Process (CMSO) –
                                       Business Alliances18

                                          CMSO Delegation Process – Business Alliances
                                                                                  (V1.0)


 CMSO / VP                                            Notify ELT                                                     Sign contract      Notify ELT
 Domestic Products



                                                            Y
                                                                               • $ - Revenue, Investment
 Business
                                                    Is deal complex            • Impact – Ops, IT, Workforce
 Development
                                                                               • Risk – Legal, Political

                                                            N

                                                    Notify staff of
                                                    ELT members


                              Preliminary
                                                                                                  Negotiations
                            discussions with         Develop deal            Negotiations
                                                                                                   completed
                             private entities
                                                Law Department, Finance and other stakeholders consulted as needed

 Law
 Department                                                           Draft / review contract



 Finance                                                              Certify cost coverage


 Other Relevant
 Stakeholders                                                           Advise as needed
 (Ops, IT, Eng, HR, GR, etc.)



 Marketing Strategy
                                                                                                                                     Maintain summary
 & Innovation
                                                                                                                                      of principal terms



Source: Manager, Marketing Strategy and Innovation.

Management believes the new approach allows them to meet their goal of streamlining
the revenue sharing agreement process by reducing the number of reviews and
approvals. However, they did not officially communicate the requirements to the entire
organization and some groups are not following the new streamlined approach. For
example, the global business team, which is responsible for designing the new
Electronic Money Transfer Service agreement, is using guidelines put in place in 1997,
during a former postmaster general’s tenure.

Management believes the detailed policy in Handbook F-66D is obsolete due to
issuance of the delegation of authority letter and that the overall revenue sharing
process is a work in progress. Management stated they would develop detailed
guidelines in the future. Revenue sharing agreements have high public visibility and the
potential to significantly impact the Postal Service’s revenue; therefore, it is crucial that
management have clear processes and procedures in place to allow them to make
informed and effective decisions.
18
  CMSO/VP – chief marketing sales officer/vice president; Ops – Operations; IT – Information Technology; Eng –
Engineering; HR – Human Resources; GR – Government Relations; ELT – Executive Leadership Team.


                                                                                         8
Revenue Sharing Agreements                                                   FI-AR-12-004



Recommendations

We recommend the chief marketing/sales officer direct the Click2Mail program manager
to:

1. Develop a process to independently verify sales transaction data for completeness
   and accuracy.

2. Develop a process to determine what data is available on web traffic and visits from
   the USPS.com website to the Click2Mail website to verify revenue sharing customer
   registrations and purchases of Postal Service products.

3. Develop a process to address business alliance concerns within a mutually agreed
   upon timeframe to avoid revenue loss.

4. Communicate goals and develop a process to measure the performance of the
   revenue sharing agreements, at least annually.

We recommend the chief marketing/sales officer:

5. Establish and maintain a central repository for all revenue sharing agreement
   documentation.

We recommend the chief marketing/sales officer, in coordination with the acting chief
financial officer and general counsel:

6. Develop detailed policies and procedures for creating, designing, and monitoring
   revenue sharing agreements and disseminate the new procedures to the entire
   organization.

Management’s Comments

Management provided two sets of comments. The first set of comments, dated
August 21, 2012, did not state agreement or disagreement with the findings,
recommendations, and monetary impact. The second set of comments, dated
August 22, 2012, addressed agreement or disagreement with the findings,
recommendations, and monetary impact, but did not provide details on planned or taken
corrective action. We included both sets of comments in Appendix C to provide the
Postal Service’s complete response.

Management agreed with recommendations 1, 4, 5, and 6 to implement a process to
monitor and communicate goals with revenue sharing agreement partners, establish a
central repository of revenue sharing agreement documentation, and develop detailed
revenue sharing agreement policies and procedures. In addition, management agreed
with recommendation 3 to address business alliance concerns, but disagreed with the
monetary impact's magnitude of revenue loss totaling $1.4 million. Further,



                                           9
Revenue Sharing Agreements                                                    FI-AR-12-004



management disagreed with recommendation 2 to monitor web activity associated with
Click2Mail to verify revenue sharing customer registrations and purchases of Postal
Service products.

In regard to finding 1, management agreed that sales transaction data should be
verified and stated that they implemented a process to verify transactions in May 2012.
This process will help minimize the risk of lost revenue while keeping the cost of
reviewing transactions in line with the risk.

Management disagreed with recommendation 2 to verify registrations and purchases
beyond what is currently in place. They maintain that the revenue levels do not justify
the infrastructure. They believe the current process for tracking the click-through rate
from USPS.com to their partner’s sites and receiving a monthly web traffic report from
the partner are sufficient. They also stated they have begun tracking the percentage of
traffic originating on USPS.com versus all other sources of the partner’s site. They
added that once the partner has surpassed a certain revenue threshold, they could add
a required independent audit to the terms of the agreement.

Regarding recommendation 3, management agreed to address business alliance
concerns within mutually agreed upon timeframes to avoid revenue loss. Specifically,
each quarter, management will hold formal discussions with each affiliate where they
address goals, tactics, and concerns. However, management disagreed with the
magnitude of the revenue loss included in our report. They acknowledged there has
been revenue loss, but their analysis shows that, on average, 82 percent of Click2Mail’s
revenue is generated by current customers versus 18 percent by new customers each
month.

For recommendation 4, management agreed to communicate goals and develop a
process to measure performance of revenue sharing agreements by October 1, 2012.
Management stated that at the beginning of each contract year they will develop goals
and performance metrics and reach a mutual agreement with the partner.

Management agreed with recommendation 5 to develop a policy for storing key revenue
sharing agreement documentation by November 1, 2012. Management added that they
established a central repository for storing all contracts signed by the chief marketing
and sales officer (or delegates).

For recommendation 6, management agreed to develop and disseminate detailed
policies and procedures for approving and monitoring revenue sharing agreements by
November 30, 2012.

See Appendix C for management’s comments in their entirety.




                                           10
Revenue Sharing Agreements                                                      FI-AR-12-004



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 3, 4,
5, and 6 and corrective actions should resolve the issues identified in the report.
Further, we believe the web activity verification process management established is a
good step toward addressing recommendation 2 because it will help show the
relationship between revenue and web activity levels. However, we continue to believe
the Postal Service should develop a more comprehensive process for determining the
number of customer registrations and subsequent purchases to validate revenue share.
Management stated the revenue levels do not justify the expense of implementing the
process in recommendation 2, but they did not provide cost information or establish
what revenue level would warrant the process. Management did state they could
include in the revenue sharing agreement the appropriate web traffic audit measures,
once the partner has surpassed a revenue threshold. While we believe the Postal
Service would benefit from a more expansive web verification process, we do not plan
to pursue this issue at this time.

Regarding recommendation 3, we disagree with management's assessment of the
monetary impact amount. Management agreed there was a revenue loss after the
redesign; however, based on subsequent discussions, they believed the impact was
$540,236. The Postal Service based their calculation on the average monthly new
customer revenue before and after the website redesign. We continue to believe the
USPS.com website redesign adversely impacted revenue in the amount of $1.4 million
because the Postal Service receives postage and production revenue from each new
customer for future sales, not just the initial sale. The $540,236 supplied by the Postal
Service does not account for subsequent purchases from these new customers.
Therefore, based upon our analysis we continue to maintain that the revenue loss
resulting from the website redesign was $1.4 million.

The OIG considers recommendations 1, 3, 4, 5, and 6 significant and, therefore,
requires OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations should
not be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.




                                            11
Revenue Sharing Agreements                                                                              FI-AR-12-004



                                 Appendix A: Additional Information

Background

A strategic alliance is a cooperative arrangement between the Postal Service and one
or more private entities. Revenue sharing agreements can be a component of strategic
alliances. The Postal Service enters into revenue sharing agreements with various
partners who are more efficient at providing certain services and products. The
agreements are usually made in return for substantive benefits from cooperative efforts.
Agreements can contain benefits for both parties. One such benefit is revenue sharing.

Revenue sharing is a process where the Postal Service and its alliance partner share
generated revenue. Other benefits, such as goodwill and visibility, can be less tangible.
Expenses such as operations, customer service, and marketing and promotion are the
primary or sole responsibility of the private sector partner. The Postal Service’s role
normally includes, at a minimum, branding and ongoing governance, if the service is
offered by the Postal Service. The Postal Service may also play a limited operational,
marketing, and promotional role.

The Postal Service identified the 14 agreements in Table 1 as revenue sharing.

                   Table 1. Postal Service Revenue Sharing Agreements19

                                                                          FY 2011
       Agreement                                              Shared Revenue    Other Revenue20
  1    Amazon                                                             $021                 $0
  2    American Greeting (Card Store)                                                     $38,554
  3    Click2Mail                                                                      $3,809,388
  4    Dinero Seguro
  5    Direct Mail Hub
  6    Endicia                                                                                  $1,318,335,368
  7    Global Express Guaranteed®
  8    Imagitas - MoverSource
  9    Imagitas - My Move
 10    Intuit
                                                                                     22
 11    Label Universe
 12    Premium Postcards (Amazing Mail)                                                              $489,378
 13    Stamps.com                                                                                 $646,071,139
                                                                                     23
 14    White Pages
Source: Postal Service revenue sharing agreement representatives, FY 2012.



19
   U.S. Postal Service Office of Inspector General (OIG) auditors reviewed the highlighted agreements in detail.
20
   Other revenue represents postage or incentive revenue.
21
   Postal Service management stated the Amazon program would begin in February 2012.
22
   This amount is for the period July 18 through November 16, 2011.
23
   This amount is for the period August 31 through November 30, 2011.


                                                         12
Revenue Sharing Agreements                                                                              FI-AR-12-004



We selected the Imagitas, Dinero Seguro, Click2Mail, and Endicia agreements for
further review. See Table 2 for details of each agreement.

                                       Table 2. Agreement Details

Agreement               Program                Start
Name                    Information            Date Functional Area               How Profit is Shared
Imagitas                MoverSource is a       1995     Domestic Products         Imagitas and the Postal Service
MoverSource             family of moving                                          share net profit derived from
                        programs that help                                        advertising revenue, calculated
                        meet the                                                  on a sliding percentage. In
                        information,                                              addition, the Postal Service
                        service, and                                              shares net profits of an identity
                        product needs of                                          verification fee.
                        Postal Service
                        customers.
Dinero Seguro           Dinero Seguro,         1996     Global Business           The Postal Service shares the
                        also known as                                             revenue derived from
                        Sure Money,                                               transaction fees and foreign
                        offers international                                      exchange fees with Bancomer
                        wire transfer                                             Transfer Services.
                        services to Mexico
                        and other
                        countries.
Click2Mail              Click2Mail is a        2003     Channel Access            Click2Mail pays the Postal
                        web-based,                                                Service a commission if a
                        self-service data                                         visitor to the Postal Service’s
                        query and                                                 website accesses and
                        selection platform                                        purchases hybrid mail products
                        designed to meet                                          from Click2Mail.
                        the mailing needs
                        of its customers.
Endicia                 Endicia provides       2008     Domestic Products         The Postal Service pays
                        computer-based                                            Endicia an incentive fee to
                        postage via a                                             acquire shipping customers and
                        host-based                                                increase the sales of qualified
                                                                                            24
                        service.                                                  products.
Source: OIG auditors.

Objective, Scope, and Methodology

The overall objective of our audit was to determine the efficiency and effectiveness of
select revenue sharing agreements. Specifically, we reviewed Imagitas, Dinero Seguro,
Click2Mail, and Endicia agreements to determine whether:

    Postal Service management and alliance partners were complying with revenue
     sharing agreement reporting controls.

    Revenue share amounts were accurate.

24                                                                                             ,
  Postage on qualified products, such as Express Mail, Priority Mail, and International Express and International
Priority Mail.


                                                         13
Revenue Sharing Agreements                                                        FI-AR-12-004




    The relationship between the Postal Service and alliance partners was functioning
     effectively.

To accomplish our objective we:

    Reviewed the agreements to identify internal controls and agreement requirements.

    Verified revenue sharing controls by interviewing applicable individuals and
     reviewing support documentation.

    Obtained revenue sharing data reports and reviewed them for accuracy.

    Tested sample transactions for accuracy.

    Interviewed Postal Service Headquarters project managers associated with each
     agreement and personnel from the law and finance departments.

    Conducted site visits25 to Imagitas, Endicia, and Click2Mail, in which we:

     o Interviewed management about overall program processes.

     o Reviewed internal controls set forth in the agreement and inquired about any
       additional controls established.

     o Inquired how the revenue is shared.

     o Reviewed reports generated for the agreements.

     o Reviewed reconciliation documentation.

     o Inquired about their relationship with the Postal Service.

We conducted this performance audit from November 2011 through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 16, 2012, and included their
comments where appropriate.



25




                                             14
Revenue Sharing Agreements                                                        FI-AR-12-004



We assessed the reliability of revenue sharing data by judgmentally testing data to
support documentation. We determined that the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             15
Revenue Sharing Agreements                                                                              FI-AR-12-004



                                    Appendix B: Monetary Impacts

          Recommendation                                Impact Category                           Amount
                3                                        Revenue Loss26                          $1,407,055

We determine monetary impact by obtaining the number of new USPS.com customers
who registered with Click2Mail and the amount these customers spent on production
and postage on a weekly basis for the 27 weeks prior to the USPS.com redesign in
July 2011. We then determined the average number of new customers per week and
the average production and postage revenue generated by these new customers prior
to the website redesign (see Table 5).27

                               Table 5. Number of Weekly New Users

                                                      After Website
      Prior to Website Redesign                         Redesign                           Difference

Source: Click2Mail data.

We then calculated the revenue loss for the 371 weekly new users that Click2Mail did
not receive from USPS.com for the (1) 40 weeks since the website redesign and
(2) the remainder of calendar years 2012 and 2013 (see Table 6).

                                          Table 6. Revenue Loss

                                                                      Revenue Loss for
                        Average          Revenue Loss for               Remainder of
                        Revenue         the 40 Weeks Since             Calendar Years
                        Per User         Website Redesign              2012 and 201328                  Total
 Production
                                                        $31,164                     $67,003                  $98,167
 Revenue
 Postage
                                                        415,520                     893,368                1,308,888
 Revenue
 Total                                                 $446,684                   $960,371               $1,407,055
Source: OIG calculations based on Click2Mail revenue data.




26
   The amount the Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed. The amount may be
recoverable or unrecoverable and may apply to historical events or a future period (in the sense that perceived future
losses may be prevented by implementing a recommendation).
27
   Based on Click2Mail data, we determined that, prior to the website redesign, on average, 433 new USPS.com
customers were registering with Click2Mail and spending, on average, $21 on producing mailpieces and $28 on
postage.
28
   For the remaining 34 weeks in calendar year 2012 and all 52 weeks in calendar year 2013, for a total of 86 weeks.


                                                          16
Revenue Sharing Agreements                                  FI-AR-12-004



                        Appendix C: Management’s Comments




                                       17
Revenue Sharing Agreements        FI-AR-12-004




                             18
Revenue Sharing Agreements        FI-AR-12-004




                             19
Revenue Sharing Agreements        FI-AR-12-004




                             20
Revenue Sharing Agreements        FI-AR-12-004




                             21
Revenue Sharing Agreements        FI-AR-12-004




                             22
Revenue Sharing Agreements        FI-AR-12-004




                             23
Revenue Sharing Agreements        FI-AR-12-004




                             24
